<html>
<title> - SEX TRAFFICKING AND EXPLOITATION IN AMERICA: CHILD WELFARE'S ROLE IN PREVENTION AND INTERVENTION</title>
<body><pre>[Senate Hearing 113-396]
[From the U.S. Government Publishing Office]







                                                        S. Hrg. 113-396

                  SEX TRAFFICKING AND EXPLOITATION IN
                    AMERICA: CHILD WELFARE'S ROLE IN
                      PREVENTION AND INTERVENTION

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 11, 2013

                               __________



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



            Printed for the use of the Committee on Finance

                                  ____

                         U.S. GOVERNMENT PRINTING OFFICE 

89-766-PDF                     WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












                          COMMITTEE ON FINANCE

                     MAX BAUCUS, Montana, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
RON WYDEN, Oregon                    MIKE CRAPO, Idaho
CHARLES E. SCHUMER, New York         PAT ROBERTS, Kansas
DEBBIE STABENOW, Michigan            MICHAEL B. ENZI, Wyoming
MARIA CANTWELL, Washington           JOHN CORNYN, Texas
BILL NELSON, Florida                 JOHN THUNE, South Dakota
ROBERT MENENDEZ, New Jersey          RICHARD BURR, North Carolina
THOMAS R. CARPER, Delaware           JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         ROB PORTMAN, Ohio
SHERROD BROWN, Ohio                  PATRICK J. TOOMEY, Pennsylvania
MICHAEL F. BENNET, Colorado
ROBERT P. CASEY, Jr., Pennsylvania

                      Amber Cottle, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)






















                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Baucus, Hon. Max, a U.S. Senator from Montana, chairman, 
  Committee on Finance...........................................     1
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     3
Cardin, Hon. Benjamin L., a U.S. Senator from Maryland...........     5

                         CONGRESSIONAL WITNESS

Blumenthal, Hon. Richard, a U.S. Senator from Connecticut........     5

                               WITNESSES

Graves, Asia, Maryland outreach services coordinator and survivor 
  advocate, FAIR Girls, Baltimore, MD............................     6
Guymon, Michelle, Probation Director, Los Angeles County 
  Probation Department, Innocence Lost LA Task Force, Los 
  Angeles, CA....................................................     9
Goldfarb, Susan, executive director, Children's Advocacy Center 
  of Suffolk County, Boston, MA..................................    11
Katz, Hon. Joette, J.D., Commissioner, Connecticut Department of 
  Children and Families, Hartford, CT............................    13

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Baucus, Hon. Max:
    Opening statement............................................     1
    Prepared statement...........................................    39
Blumenthal, Hon. Richard:
    Testimony....................................................     5
Cardin, Hon. Benjamin L.:
    Opening statement............................................     5
Goldfarb, Susan:
    Testimony....................................................    11
    Prepared statement...........................................    41
Grassley, Hon. Chuck:
    Prepared statement...........................................    45
Graves, Asia:
    Testimony....................................................     6
    Prepared statement...........................................    47
Guymon, Michelle:
    Testimony....................................................     9
    Prepared statement...........................................    52
Hatch, Hon. Orrin G.:
    Opening statement............................................     3
    Prepared statement...........................................    56
Katz, Hon. Joette, J.D.:
    Testimony....................................................    13
    Prepared statement...........................................    58

                             Communications

Alliance to End Slavery and Trafficking (ATEST)..................    67
County Welfare Directors Association of California (CWDA)........    75
National Children's Alliance.....................................    79

 
                  SEX TRAFFICKING AND EXPLOITATION IN
                    AMERICA: CHILD WELFARE'S ROLE IN
                      PREVENTION AND INTERVENTION

                              ----------                              


                         TUESDAY, JUNE 11, 2013

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:04 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. Max 
Baucus (chairman of the committee) presiding.
    Present: Senators Wyden, Schumer, Stabenow, Cantwell, 
Nelson, Cardin, Brown, Casey, Hatch, Thune, Portman, and 
Toomey.
    Also present: Democratic Staff: Amber Cottle, Staff 
Director; Mac Campbell, General Counsel; David Schwartz, Chief 
Health Counsel; Diedra Henry-Spires, Professional Staff Member; 
and Rory Murphy, International Trade Analyst. Republican Staff: 
Becky Shipp, Health Policy Advisor; and Shannon Crowley, 
Special Assistant.

   OPENING STATEMENT OF HON. MAX BAUCUS, A U.S. SENATOR FROM 
            MONTANA, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The committee will come to order.
    Abraham Lincoln said, ``If slavery is not wrong, nothing is 
wrong.'' Slavery in any form is an injustice that we must stop. 
Our country has fought long and bloody wars to end slavery, 
both at home and abroad, but unfortunately not all forms of 
slavery have been abolished in America.
    Human trafficking, which includes both labor and sex 
trafficking, is not unique to third-world countries. It exists 
right here in America. It is quickly becoming one of the 
fastest-growing criminal industries in the world. Twenty-seven 
million people are bought and sold into slavery each year, many 
of them children. At least 100,000 children are exploited every 
year in the United States. Most of these kids are only between 
12 and 14 years old.
    This committee has jurisdiction over the Nation's foster 
care and adoption system. Today we will focus our attention on 
the children most vulnerable to trafficking predators: foster 
children. Fifty to eighty percent of the children who are 
exploited and sold each year in America are connected to the 
foster care system. The tough background and unstable 
upbringing of many foster youth increase their risk of 
exploitation.
    These children frequently suffer from a history of 
emotional, physical, and sexual abuse. They are typically moved 
from place to place with little or no warning. These factors, 
combined with a desire for love and affection and a lack of 
appropriate adult supervision, increase their risk of 
exploitation.
    However, all young people can become victims of this crime. 
We will hear today from a survivor of this horrific crime, Ms. 
Asia Graves. She will share with us her firsthand experience. 
This abuse even occurs in my home State of Montana, often 
referred to as one big small town, a place where we pride 
ourselves on old-fashioned values, a place where we know our 
neighbors and look out for each other. Yet, we are not immune.
    I will share with you the story of one Montanan, a young 
woman whom I will refer to as Kay. Kay was born and raised in a 
solid family from Kalispell. She was an exceptional young 
person with everything in place for a bright future.
    At 15, she met a handsome and charismatic man at a high 
school party. He slipped a drug into her drink. He sold Kay for 
sex in exchange for money and for drugs. We cannot imagine her 
horror upon waking. She was not the same. She had no one to 
turn to. The young man used her fear and depression to isolate 
her. Kay became addicted to heroin and was repeatedly sold to 
her own peers for drugs and for money.
    Thanks to Windie Jo Fischer, a local outreach worker, Kay 
was able to escape. Windie knew what Kay was going through. 
Why? Because Windie had survived a similar experience at age 
13. Today, Kay is doing well.
    Still, too many young women just like Kay continue to 
suffer. The Bakken oil boom in Montana and North Dakota has 
brought thousands of jobs and economic activity. But the 
population spike has also brought increased crime, drugs, gun 
crime, and prostitution.
    Victims are difficult to identify. They are often coerced 
and threatened into silence. Difficulty, though, is not an 
excuse for inaction. We should not sit by and allow any more 
children to suffer in silence. These are our sons and our 
daughters, and it is our job to protect them.
    That is what today's hearing is about. We are here to 
expose this horrific problem and find out what more we should 
be doing to keep our kids safe. Too often, sexually exploited 
children have nowhere to go. The people they turn to do not 
know how to handle these cases. As a result, sex trafficking 
victims are often arrested and placed in juvenile detention. 
But raped and abused children should not be treated as 
criminals.
    The juvenile justice system is making progress, but law 
enforcement needs the help and expertise of social workers, 
mental health professionals, judges, and teachers to find the 
right solutions for vulnerable children. It is time for the 
child welfare system to do its part to end sex trafficking.
    Today's witnesses will tell us about the limitations of the 
current system to help victims. As a Nation, though, we have 
the responsibility to protect our girls and boys. The people 
who are buying and selling our children must be stopped.
    As Abraham Lincoln said, ``If slavery is not wrong, nothing 
is wrong.'' For as long as slavery exists in any form, we must 
fight to end it.
    I will say that I am sorry to interrupt here, but, before 
we move on to introducing our panel, I would like to remind 
Senators that around 10:30 we will turn to the nomination of 
Michael Froman. Michael Froman is nominated to be the U.S. 
Trade Representative.
    He testified before this committee last Thursday and 
responded to 150 questions for the record over the weekend. I 
believe Mr. Froman is the right man to lead the USTR, and he 
deserves our support. Again, at the appropriate moment, we will 
have to break so we can report out the nomination of Michael 
Froman.
    [The prepared statement of Chairman Baucus appears in the 
appendix.]
    The Chairman. Senator Hatch?

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Well, thank you, Mr. Chairman, for holding 
this important hearing on domestic sex trafficking of children 
and youth. This disturbing issue is very relevant to child 
welfare programs under the jurisdiction of the Senate Finance 
Committee.
    Domestic sex trafficking, primarily of young girls, has 
recently received widespread public attention; however, much 
remains unclear about the instances, causes, and potential 
solutions regarding this growing problem.
    For example, there is a shortage of reliable statistical 
data on how many American girls are sexually trafficked. Some 
estimates put the number of girls at risk for sexual 
exploitation at nearly 300,000. If it is true that hundreds of 
thousands of girls may be at risk, it is particularly troubling 
that only a few hundred have been identified and recovered. 
Some of these at-risk children are officially known to the 
child welfare system as ``thrown away'' children.
    These are children whose parents have either kicked them 
out of the house or abandoned them to the State. When these 
children are trafficked and come to the attention of child 
welfare agencies, the agencies often do not perform proper 
screening because the child is not in the custody of their 
parents. This is an appalling situation.
    Now, Mr. Chairman, I think we can all agree that no child 
should ever be thrown away. Individuals on the front lines in 
the fight against trafficking report that instances of domestic 
sex trafficking are on the rise. They tell us that former drug 
dealers have moved on to sex trafficking.
    They also tell us that technological advances have made 
this type of trafficking even easier. Smart phones and other 
devices provide distance and increased levels of anonymity, and 
certain websites that post classified ads soliciting sexual 
partners also help facilitate trafficking.
    Reports indicate that girls in foster care are at an 
increased risk of being trafficked. Indeed, girls in foster 
care are especially vulnerable to the advances of traffickers. 
This is because a girl in foster care is more likely to have 
experienced neglect or abuse, which increases her risk. 
Traffickers will initially present themselves to these girls as 
a boyfriend who slowly provides indoctrination. Once 
trafficking commences, the girl may run away from her foster or 
group home.
    In many States, when a youth in foster care turns away, no 
one even looks for them. Too often, regardless of whether or 
not she was connected to child welfare, if a girl is arrested 
for prostitution, she will not be offered services or 
treatment.
    The majority of trafficked girls are thought to be between 
the ages of 12 and 14. Yet, even though the law stipulates that 
these girls are too young to give consent, they are often 
treated as perpetrators of a crime rather than the victims of 
one.
    Mr. Chairman, it is simply unacceptable that State child 
welfare systems are failing to serve these girls. I recognize 
that these may be difficult cases and that the trauma these 
children have endured often results in significant challenges, 
but we need to do a much better job in addressing their complex 
needs.
    Congress needs to send clear, unambiguous signals to State 
child welfare agencies that they cannot abdicate their 
responsibilities that they owe to these young women. This 
hearing should put child welfare agencies on notice that they 
must begin to work with Congress and with the stakeholders in 
the field to properly identify and provide appropriate 
prevention and intervention services to victims of domestic sex 
trafficking and exploitation.
    There are promising practices at the State level, and there 
are agencies that are on the right track in identifying, 
preventing, and intervening in these cases. This hearing will 
highlight some of these practices and hopefully provide us with 
suggestions for improvements at the Federal level.
    I know that the chairman shares my view that the child 
welfare system in the United States is in desperate need of 
reform. For one thing, the financing structure of child welfare 
is misaligned. The majority of Federal dollars is directed at 
the least desirable outcome: removing children from their homes 
and placing them with strangers. I believe that the qualitative 
and systemic flaws in our current foster care system are among 
the factors that make girls in the foster care system so 
vulnerable to traffickers.
    Again, Mr. Chairman, I want to thank you for holding this 
critical hearing. I would like to thank all of these witnesses 
in advance for your work and for your willingness to engage 
this committee on such a difficult subject. I look forward to 
your testimonies.
    With regard to Mr. Froman, I support him. I believe he will 
make a great leader as U.S. Trade Representative. Mr. Chairman, 
I am very grateful that you are bringing him up quickly. 
Hopefully we will get him to the floor and get him through. I 
think he has the right attitude towards this job. He is 
certainly a very brilliant man, and one whom I have high hopes 
for. So having said that, I am happy to quit my remarks and get 
into this hearing, which is really one of the most important 
hearings being held this year.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. I am now pleased to welcome our witnesses. 
First is Asia Graves, who is the Maryland outreach services 
coordinator and survivor advocate at FAIR Girls. Second is 
Susan Goldfarb, who is the executive director of the Children's 
Advocacy Center of Suffolk County. Michelle Guymon is the 
Probation Director at the Los Angeles County Probation 
Department. And Joette Katz is the Commissioner of the 
Connecticut Department of Children and Families. We are very 
fortunate today to have two colleagues here who care a lot 
about children's issues. They are here to introduce two of our 
witnesses, Ms. Graves and Ms. Katz.
    So, Senator Cardin, if you want to introduce your witness 
at this point.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                  A U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, thank you, Mr. Chairman. I thank you 
very much for holding this hearing. It is my pleasure to 
introduce to the committee Asia Graves. She is an incredibly 
brave and courageous woman. Asia serves as the Maryland program 
coordinator and survivor advocate for FAIR Girls in Baltimore, 
where she works tirelessly to prevent the exploitation of 
girls, with empowerment and education.
    Asia's story, which she will share in a moment, is truly 
harrowing. She experienced something that no human should ever 
have to experience. What she experienced could have broken her, 
but she endured and survived, relating her story and using her 
experience to help children avoid or overcome equally harrowing 
experiences. By reliving her own nightmares, Asia is ensuring 
that fewer people will have to live through their own 
nightmare.
    Asia has described human trafficking as the seminal human 
rights issue, and I could not agree more. As you pointed out, 
the Department of Justice estimates that hundreds of thousands 
of children are commercially trafficked each year.
    Most of these children are quite young, the majority being 
between the ages of 12 and 14. Asia herself was 16 years of 
age. It is a modern form of slavery. The victims are victims, 
and law enforcement needs to be better educated so they are not 
prosecuted and victimized a second time.
    This problem exists in the United States. We have our 
Trafficking in Persons report that is published annually that 
points out many of the origin countries and transit countries. 
I am proud of the work of the U.S. Helsinki Commission in 
highlighting those concerns, but there are also destination 
countries that need to do more, including the United States of 
America. Asia Gray's testimony here today will point out that 
we still have a long way to go in the United States.
    The Chairman. Thank you, Senator.
    Senator Blumenthal, would you like to introduce your 
witness?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                A U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman. I want to join 
in thanking you for calling attention and shining light on this 
pernicious and prevalent problem. Thank you to you and Ranking 
Member Hatch. I want to thank Senator Portman for joining me in 
forming the Human Trafficking Caucus, a bipartisan caucus 
consisting of a number of our colleagues who are focused on 
this problem of human trafficking both abroad and at home. It 
is, in fact, a scourge. It is a growing problem both abroad and 
at home.
    The goal of shining this light on the role of child welfare 
systems is critically important, because all too often they are 
a conduit rather than a savior and protector, in effect 
inadvertently an enabler of child trafficking and exploitation.
    The role that Commissioner Katz has played in our State has 
been extraordinary in improving the services offered by our 
Department of Children and Families. She came there after a 
very distinguished career on the State Supreme Court, serving 
for 18 years as an associate justice. She wrote more than 2,000 
opinions, and is an extremely able and talented jurist.
    But she has taken over a department that was much in need 
of the kind of reforms she implemented--that hopefully others 
can use as a model around the country--in addressing the 
4,000--and I repeat, 4,000--children who are in her direct care 
and custody and 36,000 children whom she aids and helps, along 
with 16,000 families, across the State of Connecticut.
    So again, my thanks to you for calling attention to this 
problem, and I hope that we can continue to work to make sure 
that no child is at risk of the exploitation and suffering, 
lifetimes of suffering often, that result from this scourge. 
Thank you, Mr. Chairman.
    The Chairman. Thank you, Senators, both of you. We deeply 
appreciate your efforts here.
    We will begin now with the witnesses. Ms. Graves, you can 
proceed. Our practice here is that each of your written 
statements will be automatically included in the record, and 
then we urge each of you to summarize your statements in about 
5, 6 minutes, whatever works for you.
    Ms. Graves?

     STATEMENT OF ASIA GRAVES, MARYLAND OUTREACH SERVICES 
  COORDINATOR AND SURVIVOR ADVOCATE, FAIR GIRLS, BALTIMORE, MD

    Ms. Graves. I would like to first thank Chairman Baucus, 
Ranking Member Hatch, and the Senate Finance Committee for 
giving me the chance to testify at today's hearing, ``Sex 
Trafficking and Exploitation in America: Child Welfare's Role 
in Prevention and Intervention.''
    My name is Asia Graves. I am the prevention education 
coordinator for FAIR Girls and survivors of domestic minor sex 
trafficking in America. It is an honor to have this opportunity 
to speak to you today about what human trafficking looks like 
here domestically, how trafficking interacts with the child 
welfare system, and to make you understand that a girl who is 
involved in human trafficking is a victim in need of long-term 
compassionate services. She is not a prostitute or a criminal.
    I would first like to start out by telling you my story of 
surviving sex trafficking. I believe that I am one of the lucky 
few, because I received the care and support I needed to 
overcome my past. Then I would like to share with you the work 
I do at FAIR Girls to find and empower hundreds more girl 
survivors of sex trafficking right here in the Nation's 
capital.
    As a survivor of sex trafficking, I no longer consider 
myself to be a victim. As you know, the average age of entry is 
only 13 years old. My life as a victim of sex trafficking began 
at 16. I was already battling things that no child should ever 
experience. I did not have a positive support system.
    My family did not care for me, and my teachers and the 
social workers who met me did not see the warning signs. By the 
time my pimp sold me, I was isolated and scared, which is 
exactly what most girls feel as they fall victim. At 16, I was 
living with my mother, who was addicted to crack cocaine and 
herself a victim of years of abuse. I did not know what else to 
do, so I moved in with my father, who was an alcoholic. I did 
not know that my life would turn upside down.
    My dad told me that I had to pay $900 a month in rent or I 
would be thrown out. How was I supposed to come up with that at 
16? I got a job working as many hours as I could, even missed 
school. When I could not pay the rent, my father threw me out.
    So, with no place to go, in January of 2004, during one of 
the biggest snow storms in Boston's history, I went out to 
dinner with a group of young ladies whom I was living with in a 
one-bedroom apartment. While I lived with them, they took me to 
dinner and left me at the restaurant and made me walk outside, 
where there were a group of pimps who approached me. I tried to 
run away, but I could not get away.
    There was a young, nice-looking guy who approached me and 
told me that I was too beautiful to be outside in this snow, 
so, with no place to go, I actually went with him. I felt that 
was my best option, better than sleeping on a park bench in the 
snow. For the first week, everything was a fairy tale, full of 
romance, good food, and a place to sleep.
    But then things changed. After a week, he told me that he 
was a pimp and I was his property. When I told him I wanted to 
leave, he beat me for the first time. Then he called an escort 
service, took naked pictures of me, and put me on their 
website. Men came to the hotel and had sex with me. He told me 
that he would kill me or let these men kill me if I did not 
have sex.
    Two weeks later, he took me to the track, which is a place 
where pimps sell girls like me, and made me work all night, 
rain or snow, even if I was sick. He said that if I did not, 
then he would kill my family. He sold me to several pimps that 
had sex with me and forced me to have sex with other men.
    My story is sad, but it is common, and there are girls like 
me all around. But people do not see them, so they remain 
victims.
    Three years passed. Pimp after pimp, beating after beating 
and feeling like I would never be free and feeling like maybe I 
was not even worth this world, I did not even feel like I was 
worth a $3.00 Happy Meal.
    After being beaten in the head with an iron, sexually 
assaulted with a hair brush, I had enough. I was pregnant. I 
wanted my baby. I wanted someone to love me for me. I tried to 
run but was held hostage at gunpoint.
    When I finally escaped, I spoke to the first officer I 
could find. My traffickers took their revenge out on me. I 
thought I was safe in staying with a friend, but the next 
morning my trafficker sent four women with steel-toed 
Timberland boots to assault me. They knew that I was pregnant. 
They kicked me all over my stomach and left me beaten on the 
sidewalk. I lost my baby and felt like garbage. I could have 
died, but something inside me said to fight.
    I walked to the nearest police station and met an officer 
named Sergeant Kelly O'Connell, who met me at the door. She 
knew my trafficker. During an interview, I started to miscarry, 
and Kelly O'Connell took me to the hospital.
    Honestly, I was blessed to have found Kelly O'Connell and a 
group of investigators to believe in me and my story. I did not 
wake up one morning and say, ``I want to be a prostitute.'' No 
girl does. There is no such thing as a child prostitute, 
because legally children cannot consent to sex. No girl chooses 
to be a slave, yet girls like me are the faces of modern-day 
slavery in America. You might ask how this is possible. It is 
because 80 to 90 percent of victims are sexually abused. That 
is my story. I was raped from the age of 6 by my mother's drug 
dealer. I was vulnerable.
    I wanted to start off by giving you guys some 
recommendations that I feel are key. The first of three 
critical changes we need is funding to open specialized foster 
homes where girls who are sold into sex slavery can actually be 
rescued and taken care of.
    Second, every social worker and teacher should be educated 
on how to see the red flags and report a victim.
    Third, every high-risk youth, mostly girls, notably in the 
child welfare system, needs to be educated on how to stay safe 
from sex trafficking.
    The first critical change is to open specialized foster 
homes where girls and boys sold into sex slavery can truly 
receive the compassionate care they deserve. Oftentimes at FAIR 
Girls we have no place for these young girls to go. We do our 
best with our partners, but many times we are hiding in hotels 
with girls looking for a safehouse.
    This is not how a victim of slavery who has been freed 
should spend her first night. Many FAIR Girls and many social 
service agencies nationwide have a staff and vision to create 
specialized safehouses, but we need the resources to launch and 
sustain them. I think you could help us make that happen.
    Second, every social worker and teacher needs to be 
educated on how to identify and assist trafficking victims of 
sex slavery. FAIR Girls is a member of the DC Anti-Trafficking 
Task Force, and we have educated hundreds of law enforcement 
officers, social workers, and educators in victim 
identification.
    We can only truly help American children keep safe and keep 
them safe if their adult support systems are educated and given 
the tools they need to understand the warning signs before a 
child is victimized. I often wonder, how could this have 
happened? What would have happened if one of my teachers or 
social workers would have intervened and taken action before I 
was sold to pimps all over America? This is not an expensive 
training, but it is lifesaving.
    Third, children, their teachers, and the social workers 
need to be educated nationwide on how to stay safe from sex 
trafficking. As prevention and education coordinator at FAIR 
Girls, I have educated thousands of teen girls and boys in 
foster care, schools, and detention centers. This curriculum 
has educated more than 4,000 children nationwide.
    Children in the child welfare system are the most at risk 
and absolutely have to be educated on how to avoid being sold 
into sex trafficking. Had someone like me come to my school 
when I was 16, maybe my story of exploitation would have never 
happened. Recently, one teen mom came to me saying that she was 
being pressured by her older boyfriend to strip because she 
needed the money.
    I was able to join up with her schoolteacher and the child 
welfare advocate to stop her from falling into sex trafficking. 
FAIR Girls has hundreds of stories just like hers. I work 
directly with DC and Maryland child welfare agencies, and this 
evidenced-based partnership model could be emulated with the 
right services.
    I appreciate the opportunity to speak to you today, and 
there are many more stories I would like to share, as I believe 
passionately in the rights of the many girl survivors that we 
serve at FAIR Girls. I am open to questions. I consider today 
to be the beginning of a wonderful dialogue that will lead to 
creating new resources to help girls like me.
    The Chairman. Thank you, Ms. Graves. We thank you for your 
courage.
    Ms. Graves. Thank you.
    [The prepared statement of Ms. Graves appears in the 
appendix.]
    The Chairman. Ms. Guymon?

 STATEMENT OF MICHELLE GUYMON, PROBATION DIRECTOR, LOS ANGELES 
COUNTY PROBATION DEPARTMENT, INNOCENCE LOST LA TASK FORCE, LOS 
                          ANGELES, CA

    Ms. Guymon. Mr. Chairman, members of the committee, thank 
you for raising awareness of sex trafficking and exploitation 
in America. I appreciate the opportunity to speak with you 
today.
    My name is Michelle Guymon. I am a Probation Director with 
Los Angeles County, the largest county in the Nation. I have 
worked in LA County for nearly 25 years within the Probation 
Department. Today I would like to tell you a little bit about 
how I was a member of Juvenile Justice and began working on 
this issue. I would also like to address how Probation is 
beginning to partner with Child Welfare to prevent this crime 
and safeguard survivors.
    In 2010, as a part of my role in our Probation Department, 
I was serving on our Interagency Council on Child Abuse and 
Neglect committee. I was asked by a judge to be a part of a 
subcommittee on sex trafficking. I am not sure how you tell a 
judge ``no,'' but I agreed to go ahead and be on the committee.
    While I had no idea as a probation officer why our 
department would be involved in human trafficking, I thought, I 
love to travel. Who would not want to go to Thailand, 
Indonesia, or Cambodia?
    Then November 16, 2010 came. I remember the date so 
vividly, because it was the day that changed my life. It was 
the first meeting of the Domestic Minor Sex Trafficking 
Subcommittee. It was there that I learned that this 
exploitation was not something that happened thousands of miles 
away in a foreign country; in fact, it was happening right here 
in our community to the very young girls I was charged to 
protect.
    The next few days were difficult for me emotionally. I 
reflected on the many young girls who had crossed my path 
because they had been brought into Juvenile Justice on 
prostitution-related charges. Like many people within and 
outside the system, I had judged them.
    What made it particularly difficult for me is that I have a 
master's degree in social work. I took pride in my ability to 
connect with young people. I felt I was a good therapist and 
felt that we did a lot of great work, dealing with amazing 
young women who had experienced significant trauma.
    But I missed this trauma. This sexual abuse experienced by 
many young girls was not a direct correlation to why they chose 
to sell their bodies, but rather the very reason they were at 
such great risk for sexual exploitation. How did I not make 
this connection? To be honest, I beat myself up for a long time 
but realized I could not change the past. From that day to 
this, my mantra has been, and will be, when you know better, 
you have to do better.
    Over the past 2 years, we have worked hard to bring 
awareness to Los Angeles County, both inside and outside the 
system. One member of our board of supervisors, Don Knabe, was 
integral in the launch of a public awareness campaign in our 
metro system in the places where girls were most vulnerable.
    We have created video messages and done countless media 
interviews, because public awareness is critical. Until we as a 
society begin to shift our thinking from ``teen prostitute'' to 
``victims of sexual exploitation,'' nothing will change for 
these young women.
    Therefore, we must develop systems and protocols to 
identify these children much earlier. Because so many exploited 
children have a history in the child welfare system, that 
system provides an opportunity for prevention and early 
intervention efforts.
    However, Child Welfare has expressed many challenges and 
barriers to serving victims of sexual exploitation. They 
require unique and specialized services that the child welfare 
system, at this time, is not built, nor resourced, to 
effectively handle. We must fix this. Because of family 
dysfunction, many victims are in group homes or shelters. They 
run away and are living on the streets.
    A pimp or exploiter preys on this vulnerability. Statistics 
say that one in three teens will be recruited by a pimp within 
48 hours of leaving home and becoming homeless. He may pose as 
a boyfriend or parental figure, offering to provide food, 
shelter, clothes, security, even love. Later, after that 
emotional bond has been established, she is forced to engage in 
commercial sexual acts or face brutal physical violence.
    Foster youth are extremely susceptible to exploitation due 
to their lack of attachment, and their need to belong to 
someone. One young girl with whom I have worked grew up in the 
foster care system, was adopted, and then sold by her adoptive 
mother to sustain her drug habit. She told me, ``I remember the 
first time my pimp told me that I would be going to a hotel to 
have sex with men. In the pit of my stomach I knew this did not 
seem or feel right. I had a really bad feeling, but my need for 
love and to really belong to someone was more important. 
Because of my own sexual abuse as a child with different men, I 
already knew what having sex with men was all about, so I 
went.''
    No one agency or system can adequately service these 
victims alone. Right now we are faced with a major challenge: 
how do we identify, develop, and implement a collaborative 
response to this growing problem? Again, it starts with a 
paradigm shift on how we see these young women. Your hearing 
today is evidence of that change happening.
    I would like to close with the words of a young victim 
survivor we are now working with who recently wrote about her 
experiences. She said, ``I would strive to change the law and 
how people view young people who are being sold, bought, and 
abused. The lifestyle is not a choice for us. Still, people 
look at us with disgust. It makes us feel 10 times more 
pitiful. What we look like on the outside does not match how we 
feel on the inside. Please remember there are hundreds, if not 
thousands, of stories similar to mine. So let us help those in 
need, not judge and neglect us anymore. Show us that there is 
something better for us out there. Give us a chance we have 
never had. I will appreciate this more than you could ever 
know.''
    Thank you for the opportunity to speak to you today.
    The Chairman. Thank you very much, Ms. Guymon.
    [The prepared statement of Ms. Guymon appears in the 
appendix.]
    The Chairman. Ms. Goldfarb, you are next.

  STATEMENT OF SUSAN GOLDFARB, EXECUTIVE DIRECTOR, CHILDREN'S 
         ADVOCACY CENTER OF SUFFOLK COUNTY, BOSTON, MA

    Ms. Goldfarb. Good morning, Chairman Baucus, Ranking Member 
Hatch, and members of the committee. Thank you for the 
invitation to join you here today.
    My name is Susan Goldfarb. I am the executive director of 
the Children's Advocacy Center of Suffolk County, a Boston-
based organization dedicated to healing and justice for child 
and teen victims of exploitation and abuse. I am grateful for 
the opportunity to testify today on behalf of a once-invisible 
population.
    As a professional working in the field of child abuse for 
more than 25 years, I cannot overstate the need to finally 
recognize and address the needs of these incredibly vulnerable 
and under-served children.
    The commercial sexual exploitation of children, which we 
also call CSEC, is a crime of systemized brutality and sexual 
assault that is deliberately waged on children with prior 
histories of neglect, isolation, and vulnerability. 
Historically, these children have been labeled child 
prostitutes, treated as criminals, and perhaps even worse, 
ignored altogether.
    In Boston, I have the privilege of working with the Support 
to End Exploitation Now Coalition, also called SEEN, an 
initiative of the Children's Advocacy Center, the Office of the 
District Attorney Daniel F. Conley, and over 35 governmental 
and community-based partners.
    SEEN was founded in 2006 with the core beliefs that 
commercial sexual exploitation of children is child abuse, not 
delinquency, and that exploited youth are child victims, not 
criminals. This was a turning point in our community.
    Building on these core beliefs, hundreds of professionals 
have been trained to recognize and respond to exploitation. As 
a result, since 2006 we have identified and served more than 
700 high-risk and sexually exploited youth, where before we 
were not seeing them at all, and we have learned a great deal.
    Also, we now know what we have long suspected: these 
children are truly among the most vulnerable. We have learned 
that upwards of 70 percent have a history of sexual abuse, 
physical abuse and/or neglect, and child welfare involvement.
    Roughly 65 percent have a history of running away, and 
nearly 60 percent of the children were 15 years or younger at 
the time that they were referred to us. Traffickers know this 
vulnerability, and they exploit it. It is our responsibility to 
prevent and stop them.
    So how can we do this? I believe that child welfare 
agencies are, and will continue to be, at the center of this 
work. As my child welfare colleagues in Boston have said, these 
are our kids.
    So I would like to outline five challenges that also offer 
opportunities. The first is mandated reporting of commercial 
sexual exploitation. In most States, exploitation continues to 
go unreported to child welfare, but it is a form of child abuse 
and should be reported as such in all States.
    Second, there is a lack of data. When commercial sexual 
exploitation is reported to Child Protective Services, most 
child welfare databases classify the reports as sexual abuse or 
neglect. There is no category for CSEC. As a result, there is 
no mechanism or coding to collect data about how many children 
are being served or are in need.
    Third, there are limitations within the child welfare 
system to serve all exploited children. In most States, child 
welfare becomes involved only when an alleged offender is in a 
caretaking role. But a pimp is not considered a caretaker, so 
the majority of exploitation reports are screened out. A few 
States have expanded the scope of their screening to include 
adult caretakers who have a child under his or her control. 
This change allows exploited youth who have no familial 
caretaker in their life to receive the support and services 
they need.
    Fourth, there is a need for training and development of 
agency protocols. While child welfare agencies are already 
serving these children, the CSEC is often not recognized. 
Training is needed agency-wide to ensure universal screening, 
identification, and understanding of the exploited child's 
experience, and trauma-
informed service planning. Policies are needed to ensure timely 
interagency communication and collaboration between child 
welfare, law enforcement, and others when responding to 
exploitation.
    Finally, we need multi-disciplinary collaboration. On 
average, each child victim of commercial sexual exploitation is 
involved with three to four agencies. A true safety net 
requires consistency, communication, and teamwork across 
agencies and systems.
    Children's advocacy centers across the Nation are experts 
in facilitating collaboration on behalf of abused children, and 
are a ready resource to advance this work. These are achievable 
changes. There is an astonishing level of public interest in 
sex trafficking of children and a growing body of knowledge 
regarding best practices. We have an opportunity to leverage 
this interest and expertise and make real changes that will 
honestly restore and save lives.
    Thank you for the opportunity to speak with you today.
    The Chairman. Thank you, Ms. Goldfarb, very much.
    [The prepared statement of Ms. Goldfarb appears in the 
appendix.]
    The Chairman. The final witness is Ms. Katz. Are you a 
judge?
    Ms. Katz. I was a judge.
    The Chairman. A recovering judge. [Laughter.] Judge Katz, 
you are next.

STATEMENT OF HON. JOETTE KATZ, J.D., COMMISSIONER, CONNECTICUT 
       DEPARTMENT OF CHILDREN AND FAMILIES, HARTFORD, CT

    Judge Katz. Thank you very much. Chairman Baucus, Ranking 
Member Hatch, and distinguished members of the Senate Finance 
Committee, thank you for the opportunity to appear before you 
today. My name is Joette Katz, and I am the Commissioner of the 
Connecticut Department of Children and Families, otherwise 
known as DCF.
    I would like to share with the committee some of the 
efforts that the State of Connecticut has undertaken to address 
the issue of domestic minor sex trafficking, DMST, and its 
impact on our children.
    First, it is important to provide an important backdrop. 
Although much attention has been paid to these human rights 
violations in other countries, it is perhaps less widely known 
that child trafficking is occurring in the United States at an 
alarming rate.
    The U.S. Department of Justice estimates that 200,000 
American children are potentially trafficked each year into the 
sex trade. The U.S. Department of State Trafficking in Persons 
report of 2010 found that the majority of domestic victims 
enslaved in the sex industry are runaway and homeless youth.
    Nationally, 450,000 children run away from home each year, 
and 1 out of every 3 teens on the street will be lured toward 
prostitution within 48 hours of leaving home. This means at 
least 150,000 children are lured into prostitution each year. 
The average age of children victimized by pornography and 
prostitution in the United States is 12 years old.
    Data show that children who are involved with child welfare 
services, specifically in the foster care system, are at a much 
higher risk of being trafficked into the sex trade. The 
Department of Children and Families is one of the Nation's few 
agencies to offer child protection, behavioral health, juvenile 
justice, and prevention services under the umbrella of a single 
department.
    Accordingly, whether children are abused, neglected, 
involved in the juvenile justice system, or experience 
emotional, mental health, or substance abuse issues, the 
department can respond to these children in a way that draws 
upon community and State resources to help.
    Over the past few years, we have seen a dramatic increase 
in the trafficking of minors in Connecticut. Human trafficking 
is the third most profitable criminal industry in the world, 
generating an estimated $32 billion per year. The reaction of 
moral outrage that is prompted in the face of such child 
victimization has fueled considerable work of the department to 
galvanize a system-wide collaborative effort necessary to 
identify and combat this.
    Since 2008, when collaborative efforts in Connecticut 
significantly increased, both internally at the department and 
externally with the community, there have been approximately 
130 children who have been identified and confirmed as victims 
of DMST.
    Of those victims identified, 98 percent have been involved 
with child welfare services in some manner, and many of these 
children have been victimized while legally in the care and 
custody of the department. To address the problem, over the 
past 2 years the department has been collaborating with local, 
State, and Federal law enforcement to better coordinate our 
response, particularly as it relates to the children in our 
child welfare system.
    We have found that the most significant barriers have been 
the identification of minor victims, development of appropriate 
responses, and enforcement of laws leading to the arrest and 
prosecution of persons responsible for these crimes.
    Identification of minor victims could not be accomplished 
without a State-wide training initiative that incorporated the 
definition of the Federal Trafficking Victims Protection Act 
and the evolving State legislation in Connecticut that has been 
modeled by other jurisdictions throughout the country. Most 
importantly, identification and response requires raising the 
awareness of the children and youths themselves who are being 
victimized by trafficking. The ultimate goal of the trainings 
is to change the lens, through which we view these most 
vulnerable youth, from prostitute to victim, or survivor, as 
the girls would describe themselves.
    The State-wide training initiative in Connecticut has 
rolled out in various stages over the past few years. To date, 
our training academy has provided 2 full days of training to 
hundreds of department employees on the issues of DMST, with 30 
trainers from the department who are available to conduct an 
abbreviated version.
    Training sessions have occurred across the State for parole 
and probation officers, private providers, police, emergency 
medical services, hospitals and emergency departments, schools 
and various other community entities, among others.
    In addition, the department offers a 2-hour certified 
training on DMST to police officers from around the State 
through Connecticut's Police Officer Standards and Training 
Council. To date, hundreds of officers have been trained.
    The department's CARELINE, which is our 24-hour intake and 
information center, was at the forefront of this initiative, 
ensuring that any potential case involving a minor be reviewed 
despite the lack of a legal mandate. The department protocol 
has evolved over the years, and now our CARELINE accepts all 
cases of DMST regardless of whether the alleged perpetrator is 
the entrusted caregiver.
    The department also continues to advocate for more robust 
legislation to combat DMST. In recent years, the Connecticut 
General Assembly has passed several acts regarding DMST, 
including legislation that ensures law enforcement refer minor 
victims to the department rather than arresting any exploited 
youth for prostitution.
    In response to this act, the DCF CARELINE implemented a 
designated calling number for law enforcement to improve the 
department's response to police officers, as well as any 
potential victims in need of services.
    This past week, our State legislature approved a bill that 
provides a comprehensive response to address the issue of 
sexual exploitation and human trafficking by enhancing criminal 
penalties for the purchase and trafficking of minors, 
protecting child victims, and adopting a criminal justice 
framework for investigation and prosecution.
    To further assist with the development of a comprehensive 
and systemic response, an inter-agency team was established and 
is known as the Human Anti-Trafficking Response Team, HART. The 
HART team, led by the department, is a multi-disciplinary 
collaboration including staff from the department, private 
providers, and the Office of the Victim Advocate.
    All cases that are called into the CARELINE are reviewed 
and monitored by a member of the HART team to ensure an 
appropriate response that includes the provision of services to 
victims whose cases have not been substantiated.
    To guarantee that all cases are prosecuted to the fullest 
extent permitted by Federal and State law, the department also 
collaborates with the FBI and Homeland Security on a regular 
basis.
    Through HART, the department's response protocol, which was 
designed by a department psychiatrist, includes new practice 
guidelines that provide a detailed framework to respond to 
potential victims. Additionally, the department's medical team, 
in collaboration with the private provider network, developed a 
nursing assessment tool to help identify and treat youth.
    Although the department has not received additional funds, 
providers across the State who work with minor girls have been 
trained on the issue of DMST, ensuring competencies at every 
service level. A ``My Life, My Choice'' curriculum has been 
offered at various congregate care programs throughout the 
State and is now being implemented in community-based programs 
as well. These strategies not only help to prevent youth from 
being trafficked, but also aid the youth in their self-
identification.
    In conclusion, while much of our focus in Connecticut has 
been on the girls, we are equally concerned about the issues of 
boys and DMST. This issue currently is under review by the 
department in collaboration with our private provider network, 
with a primary focus on identification and response.
    In addition, the department is finalizing the design of a 
curriculum for adolescent boys in an effort to deter boys and 
young men from encouraging and/or engaging in the acts of DMST. 
We are proud that we have made considerable progress in 
increasing awareness of this horrific issue, but we fully 
understand that we still have a lot of work to do in 
Connecticut to protect our vulnerable children.
    To help illustrate the magnitude of this problem, attached 
to my testimony is a brief synopsis of two of our cases. Both 
of these children were involved with the child welfare system.
    Once again, I would like to thank you for this opportunity 
to speak today, and obviously, at the appropriate time, I would 
be happy to answer any questions you may have.
    [The prepared statement of Judge Katz appears in the 
appendix.]
    The Chairman. Well, thank you all very much. As I listen to 
you, I am struck with several points. One is, there seems to be 
a significant effort, primarily in the States, whether it is 
Connecticut, Los Angeles, Maryland, or DC, and people in the 
appropriate agencies and State jurisdictions have worked hard 
to try to resolve this.
    I am also struck with a seeming agreement among all of you, 
which is that the child welfare system should be responsible 
for all sexually exploited children, irrespective of their 
parents, guardians, or foster homes, or even those on the 
streets. There must be much more mandatory reporting, and there 
must be more training, et cetera.
    The question I have, though, is, what is the Federal role 
here? What can we in Congress do to help States? You certainly 
seem to have a good grasp of the problem, but what can we do to 
help; what can the Federal Government do to help here? Does 
anybody want to answer first? Ms. Graves?
    Ms. Graves. From my point of view at FAIR Girls, I think 
that housing is key because, if you do not address the issue of 
housing--in Baltimore city there are only six beds dedicated to 
homeless youth. In DC, there are only eight beds dedicated to 
homeless youth. So, without actually working on that issue 
first, what are we going to do? The pimps are going to get the 
girls before we get the girls. We can prevent trafficking by 
having a stable place for youth to live in.
    I know that I did not have a stable place, and, without a 
stable place to live, I could not do anything. A pimp was 
easily able to grab me. As the numbers show, a youth that is on 
the street is going to interact with a pimp, 1 out of 3, within 
72 hours. So, if we could address the issue of homelessness 
first, and at the Federal level with funding for housing, I 
think that would be key.
    The Chairman. All right.
    Ms. Guymon, what do you think?
    Ms. Guymon. Well, I think one of the other issues, and it 
was talked about with everybody, is training. I think there 
need to be resources for training. Again, unless people are 
aware that these young women are not on the street by choice, 
then nothing really changes for them, and nothing changes for 
all of us.
    The Chairman. Who should be trained?
    Ms. Guymon. I think there are a lot of programs out there. 
Like they said in Connecticut, they have built curriculums. I 
think there are various curriculums out there throughout the 
United States. I think there needs to be mandated trainers who 
come out and go through the training.
    I know that OJJDP has sponsored a couple of grants where 
they have put together training curriculums that have direct 
correlation to CSEC, the Commercial Sexual Exploitation of 
Children, and I think States should be mandated to put that 
training forward.
    The Chairman. Teachers? Whom do you train?
    Ms. Guymon. Anybody who is involved with young girls and 
young boys. I would say teachers, community. I know within our 
department and within our county, we have trained over 2,500 
people in the past year, from all the different department 
agencies: mental health, health services, the district 
attorney, law enforcement, and just basic people in the 
community who have organizations that work with community 
action groups, to just really look at, if you see something, 
report it. So I think just anyone who has access to children 
and who works with children to provide services.
    The Chairman. Are there good trainers?
    Ms. Guymon. I think there are some very good trainers, yes.
    The Chairman. All right.
    Ms. Goldfarb?
    Ms. Goldfarb. What I would reiterate is the need to really 
recognize this as child abuse, and along with that comes the 
mandated reporting to child welfare. While that is shifting 
within some States, if there was leadership at the Federal 
level that really either encouraged that or made that a policy 
priority, by doing that, it would really begin to create a 
safety net for this population.
    When every professional in the community has an obligation 
to make that report, and then child welfare receives that 
report, that is really the first step in connecting all of the 
agencies that are going to be helpful in supporting an 
exploited child, because in most States, child welfare is 
immediately going to connect with law enforcement. It is really 
going to create a team of people who are looking after that 
child's needs. I think in order to really advance that, it 
requires leadership from the highest level.
    The Chairman. It is similar to the Violence Against Women 
Act, and that was a Federal policy years ago which helped focus 
attention on spousal abuse, and the abuse that women sometimes 
face. Something similar, you are suggesting.
    Judge Katz?
    Judge Katz. Thank you. Yes. Actually, I think this is very 
similar to what was done with regard to domestic violence, as 
well as sexual assault. I am viewing this through a financial 
lens, quite frankly, because I think that there needs to be 
more financial consequences, both for pimps and johns. In 
Connecticut, we just passed some in rem proceedings, 
forfeiture.
    I mean, it really is in some ways hitting people where it 
hurts. A lot of trafficking goes on at large venues: the Super 
Bowl, gambling casinos. I think you need to shine a light on 
what goes on there and, again, have attendant financial 
consequences in addition to the in rem proceedings.
    Then finally, along the same vein, I think there needs to 
be some attention to publishers. What I mean by that is, we 
have legislation in Connecticut that goes after people who 
place advertisements, escort services, in which they are 
trafficking young girls. But frankly, the publishers who 
publish these newspaper ads do so with complete impunity, and I 
question that, quite frankly.
    The Chairman. Thank you all. I apologize, but I am going to 
have to break in a little bit to conduct a little business. We 
have a quorum present, so we can consider the nomination of 
Michael Froman to be U.S. Trade Representative. I would 
encourage Senators to submit their statements for the record so 
we can take action on Mr. Froman.
    If there is no further debate, I would entertain a motion 
that we report the nomination.
    Senator Hatch. I so move.
    The Chairman. Without objection, the nomination is 
reported. I do not see a roll call being requested, so we will 
proceed. No, we do not need one. All right.
    The nomination is ordered reported. Thanks to all Senators 
for their attendance. I deeply appreciate it. All right.
    Senator Hatch?
    Senator Hatch. Ms. Graves, I want to thank you so much for 
being at the hearing today and for your courage and resiliency 
and your efforts to try to help other young women who have 
suffered as you have.
    As a survivor advocate, I would like your view on one of 
the key recommendations from the National Foster Care Youth and 
Alumni Policy Council, which calls for a ``youth-friendly 
resource for reporting abuse.'' Can you offer any suggestions 
on what would need to be in place in order to provide for that 
type of a resource?
    On a related topic, some have suggested that a domestic sex 
trafficking reporting hot-line be established. Others do not 
believe that that hot-line will be an effective deterrent or 
intervention tool. So, I would like your views on the 
establishment of a hot-line as well.
    Ms. Graves. I do agree, and I think that there has to be a 
youth-friendly reporting place. My suggestion is that there 
needs to be a text message or online resource that is youth-
friendly and safe, where they can report abuse, whether that is 
abuse by a pimp or abuse inside the foster home or group home.
    In certain circumstances, it might not be safe for a youth 
to make a phone call. This would be because of a violent pimp 
or possibly a foster parent or adult who may retaliate against 
them. Most youth have cell phones. At FAIR Girls, we are 
testing a mobile application on relationship safety called the 
Charm Alarm. If we create a similar system of reporting for 
this, I think that it could be beneficial. I feel that it would 
be really beneficial.
    So, just as important, there needs to be a place for youth 
to go after they make a report. This is why, at FAIR Girls, we 
are advocating for opening a safehouse for girls identified as 
victims in DC.
    You asked me as well about the hot-line. I feel that a hot-
line would not be an effective tool. Currently, we have the 
National Human Trafficking Hot-line. The issue is not having an 
appropriate place for youth to call, but the resources to fund 
organizations that provide direct services to victims.
    I believe that, if we can make sure that all victims who 
encounter law enforcement and direct service providers are 
given information for the National Human Trafficking Hot-line, 
that would actually make it more condensed, where all the 
victims are going into one place and we know exactly where 
these victims are. Creating another hot-line would be 
duplicating an already working system, in my opinion.
    Senator Hatch. All right. Thank you.
    Commissioner Katz and Ms. Guymon, I want to thank you for 
appearing. This is an extremely important hearing as far as I 
am concerned. I want to thank you for the work that you do, all 
four of you. It is terrific, what you are trying to do, 
especially in States that have undertaken policies to address 
issues associated with trafficked minors.
    Can you produce further details on what happens to the 
trafficker when the trafficking case is screened into the child 
welfare system? For instance, is he considered a legal guardian 
for purposes of establishing abuse? Are there automatic 
procedures to engage law enforcement? Can you just give us some 
background on that, any of you?
    Ms. Guymon. In Los Angeles, I think one of the issues that 
we struggle with is, no, we do not consider him, the 
trafficker, a guardian. In most cases, we have a difficult time 
figuring out who the trafficker is, because young women do not 
disclose who it is because they are afraid.
    So, therefore, we get a hot-line call, and there is no 
perpetrator, if you would, on that. There is legislation 
happening in California which will allow child welfare to 
screen a case and be able to bring a young person into the 
child welfare system.
    Again, I think child welfare is built on the perpetrator 
being a family member or someone who is related. They have 
started taking hot-line calls as early as January of this year 
for mandated reporting of sex trafficking, and so far, since 
January, they have introduced 75 young women into the foster 
care system just in Los Angeles.
    But I think, again, in identifying the trafficker, it is 
very difficult. I will say, because of a lot of the prevention 
and intervention work that we are doing within Los Angeles 
County, within the last 18 months we have had 24 young women 
testify against their trafficker, which has been quite a few 
more than it was a few years back. I think that really has to 
do with a lot of the support and services that we have been 
able to put in place in Los Angeles.
    Senator Hatch. Great.
    Commissioner Katz?
    Judge Katz. Thank you. We are fortunate in Connecticut 
because we do not worry, frankly, as to whether or not the 
trafficker is an entrusted guardian, because more often than 
not the trafficker is not an entrusted guardian. I mean, 
certainly if the child is being trafficked by his or her 
parent, then, from a procedural standpoint, the case is really 
easy.
    We substantiate and obviously remove the child from the 
parent and put services in place, et cetera, but we do not 
consider ourselves limited by that, fortunately. We respond to 
those girls within 2 hours. Our CARELINE is trained on how to 
respond, because, very much like domestic violence, it really 
is a difficult situation, and we need to be very thoughtful and 
mindful of how we respond to these girls.
    We want to embrace them and not prosecute them. We contact 
law enforcement immediately. We engage law enforcement, often 
on the Federal level, but just as often on the State level. We 
surrender the information that we have to law enforcement 
agencies. We partner with them. Then we immediately engage our 
leaders--one of whom is with me today, Tammy Sneed; another is 
Bill Rivera--and our HART team to try to attend to these girls, 
immediately wrap services around them.
    If in fact they need hospital care, we also partner with 
our local medical facilities, again through the protocol 
designed by our nurses, so that these girls do not sit in a 
waiting room on a triage system for hours on end. They are 
brought into a back room where they are gently treated by 
doctors and nurses who have been equally trained in this area.
    I cannot emphasize training enough. I know you have heard a 
great deal about it today. I want to echo that because, just 
like with domestic violence and sexual assault victims, it is 
key in how you respond to these young ladies--generally young 
ladies--in the first instance, because you get one shot.
    The Chairman. Thank you, Senator.
    Senator Hatch. I want to thank all of you, too, for being 
here.
    The Chairman. Senator Brown?
    Senator Brown. Thank you, Mr. Chairman.
    Ms. Graves, you said in your testimony, ``The teachers and 
social workers who met me did not see the warning signs.'' What 
do we do to equip adults, especially in the case of social 
workers and others, but teachers and adults that someone like 
you would have run into? How do we equip them better to listen 
to you, to pay attention to what you say, to actually believe 
your story when you try to talk to them in those few moments 
that you might get to interact with somebody outside in that 
way?
    Ms. Graves. For me, I think that the key thing you just 
said was believing in them and believing what they say. If you 
do not believe what a youth says, even if it may seem a little 
bit outlandish, some of what they are saying may be true.
    I do not think a girl or a young woman is going to say, ``I 
was raped'' if she probably was not raped. I mean, rape is one 
crime that no woman wants to even discuss most times, and most 
rapes go unreported. So as a young woman, when I was 
encountering social workers and teachers and saying I was 
raped, I was raped, I was raped, no one believed me.
    My teachers, social workers, the doctors, would not even do 
medical tests. I think that is reprehensible now, that no one 
would even do that. I think the best way to actually fix that 
and equip them is, we have a prevention education program that 
we teach in Baltimore city schools, as well as in DC public 
high schools.
    You would be surprised that most teachers do not even know 
that human trafficking happens in their own city. I mean, human 
trafficking happens right outside our Nation's capital. Human 
trafficking happened right downtown in Baltimore on Baltimore 
Street and Gay Street, which the students--you would be 
surprised that the students actually know more about 
trafficking than the teachers do. They know that it is 
happening in their communities.
    If you could have a professional development day for all 
social workers and all teachers and make it a mandatory 
requirement federally as well as in colleges--I know that in my 
small college in Tennessee, for this past semester they tried 
something new, where they let me teach the class on trafficking 
for 1 day, going over what is trafficking, how it affects 
social workers.
    So, if all social workers in college were mandatorily 
required to go through training on human trafficking, anyone 
who interacts with children--whether they are probation 
officers, and we train DJS employees all the time--anyone who 
is interacting with the youth should be trained on human 
trafficking and trained on what the warning signs are, which 
are multiple STDs, running away from home, showing up with 
expensive items that they cannot afford. I mean, how can a 14-
year-old afford an iPhone 5 and brand-new Louis Vuitton shoes 
that I cannot afford as someone who works full-time? Things 
like that.
    Senator Brown. Thank you.
    What you said about adults not recognizing this problem in 
this country is, I think, so important to underscore. That is 
one reason I think the chairman calling this hearing is so 
important. I think most of us in this country think of sex 
trafficking and trafficking for labor, too, as something in the 
developing world, something only in the poorest countries. That 
is what makes this hearing important.
    Toledo, by some studies, is--and I know that is one reason 
Senator Portman has taken this issue on. It is important to him 
and to our State. It is because of its location, in part, and 
being at the intersection of two major east/west and north/
south interstates, that it is part of this.
    I appreciate what you said about housing in response to the 
chairman's question, specifically how important that is. My 
understanding is that in Ohio, according to a University of 
Toledo study, a runaway child will most likely be approached by 
a trafficker, a recruiter, after having left home, within 2 
weeks, sometimes obviously as early as 48 hours. What do we do 
to protect these children in those situations, when they have 
run away, from being lured into trafficking? Give us a couple 
of thoughts on that, Ms. Graves.
    Ms. Graves. Treat them as a victim instead of as a 
criminal, because most youth, they are going to get arrested 
within a couple of weeks of being out on the streets for doing 
something. It may not be prostitution. It may be stealing 
clothes from a store. I mean, I know there was one time I got 
in trouble at a grocery store in Boston, in Beacon Hill, for 
stealing groceries.
    So, when you are stealing groceries and you are 16 years 
old, you would think that they would actually call the police 
and say, well, this youth must be homeless, let us do something 
about it. Where are the youth supposed to go when they are 
homeless and on the streets?
    As you said, in Toledo they basically meet a pimp within 2 
weeks. So, if they are sleeping on a park bench or staying at--
doing what we call in DC, couch surfing--that is what the kids 
call it: couch surfing. If they are couch surfing from place to 
place to place, why are any of these people not noticing it?
    Senator Brown. So what happened when you were caught taking 
those groceries? What specifically happened from the grocery 
store management and the police?
    Ms. Graves. They barred me from going into the store again 
and said that I was a criminal and that I was a thief, and they 
threatened to arrest me. The police asked me where I lived, and 
I made up a fake address because I did not want to say that I 
was homeless. What youth wants to say, I have no place to go, 
that I have no family to count on? I mean, when I could not pay 
my rent to my father, he said, ``You cannot live here.''
    Why did the child welfare system not get involved then? Why 
did the child welfare system not say, we need to make sure that 
this man who has 21 children and is not paying child support 
for any of them, why did they not say, let us look into him? 
They knew he was alcoholic. They had been to the house prior to 
me living there, and they knew that I was going there. I had 
been to the hospital.
    I used to go sleep in hospitals. So, when you are trying to 
sneak into hospitals and do not have a place to stay, and the 
hospital is letting you stay there for a day, then saying, oh, 
well, is something wrong with you, and you are saying, yes, my 
ankle hurts--I went to the hospital for multiple injuries, and 
no one got involved until I was beaten to the point of death. 
No medical personnel or anyone else.
    Senator Brown. Thank you. Thanks, Ms. Graves.
    The Chairman. Thank you, Senator.
    Senator Portman?
    Senator Portman. Thank you, Mr. Chairman. I really 
appreciate you having this hearing today, increasing awareness 
of the issue. Senator Brown is right, in Ohio we do have a 
problem. We do everywhere. In 2010, Toledo was listed as the 
fourth-ranking city in America in terms of human trafficking. 
That is one reason Senator Brown and I are engaged.
    But it happens in all of our cities in Ohio and in many of 
our rural areas, so I really appreciate the fact that all of 
you are engaged on this issue and every day in the trenches, 
and specifically raising awareness today.
    Ms. Graves, your testimony was really powerful, as it 
always is.
    Ms. Graves. Thank you.
    Senator Portman. Thank you for being willing to get out 
there and tell what have to be painful stories.
    In response to Senator Brown, I thought that was good to 
hear more about, how do you recognize the signs, specifically 
for teachers, social workers, and law enforcement.
    You also talked during your testimony about keeping girls 
safe and helping girls to understand; I think you said 
educating girls as to the dangers. What do you find are the 
most successful tools to educate youth who might be vulnerable?
    Ms. Graves. Currently we teach a 4-module curriculum in DC 
and Maryland schools, and in detention centers and in group 
homes. By teaching this curriculum, which goes over, what is 
trafficking--and we use modern music, things that they listen 
to every day, to say, well, how does the music industry impact 
trafficking? What does trafficking look like in your community? 
Who is trafficked? A lot of times they will say ``taken,'' 
things of that sort.
    That is the view that I hear from adults as well, which is 
shocking, when most people who have college degrees know that 
it happens here but no one wants to admit it happens here. So, 
when we actually go into the classrooms and I see these youths, 
they will tell me ``taken'' the first day. Going through the 4-
module curriculum and then having survivors on staff like FAIR 
Girls does go into the schools to tell their story and share 
their experiences with these youth--and some of them are 
basically saying that they are homeless now--we create a 
resource guide for every city that our curriculum is used in.
    The resource guide has housing resources, food, clothing, 
transportation, medical services. Anything that the youth that 
may be living on the streets may need, our resource guide 
provides. But like I said, when there is no housing available--
there has been times when we have slept in hotel lobbies with 
the girls--what exactly are we supposed to do to help them and 
keep them safe?
    Their pimp is going to tell them, well, the service 
provider you are working with is not keeping you safe because 
you do not have a place to sleep tonight. We have girls who 
come to our office every day whom we work with who would do 
what they need to do, but the shelters do not have any beds for 
them. We tell them the same night, we will try to put you in a 
hotel if we have the funds for it.
    But, if we do not have the funding, we do not have a place 
for these girls to go, and they are going right back to the 
pimps who are beating them, raping them, and selling them every 
day, because at least that pimp is providing them a place to 
sleep and food to eat. I went back several times because of 
that.
    Senator Portman. So you are providing them with what the 
warning signs might be, but also options.
    Ms. Graves. Options. Resources.
    Senator Portman. Yes. Resources.
    Ms. Guymon, and for that matter other panelists, I think 
one thing we have heard today loud and clear is that we should 
be treating young people who are, by appearances, engaging in 
prostitution as victims of exploitation. I think one step 
further, where this committee actually has a role to play, is 
ensuring that those victims are eligible to receive services as 
victims of child abuse in the child welfare system. Judge Katz 
said earlier also, we should be looking at these girls as 
survivors and not just as victims.
    This committee does have jurisdiction here. Senator Hatch 
talked about it at the outset. We have jurisdiction over child 
welfare, State plans, for instance, and that is why this 
committee is an appropriate venue for this.
    Research suggests, as we have heard today, that trafficked 
youth in the United States have typically been in and out of 
the child welfare system. In New York, 85 percent have prior 
child welfare involvement; in Florida, the estimate there for 
their task force is that 70 percent of the kids are foster 
youth. You talked about that, Ms. Graves. So there is 
definitely a connection here.
    In an effort to break down some of these obstacles to care, 
last week Senator Wyden, who is here today, and I introduced a 
bipartisan bill, with support from a lot of members of this 
committee--including Senator Blumenthal who was here earlier 
and co-chairs the Human Trafficking Caucus--that basically 
requires that children who have been involved in sex 
trafficking be considered victims of abuse and neglect under 
CAPTA, which is the Child Abuse Prevention and Treatment Act.
    Another part of the bill requires that, after being 
informed that a child is missing from child welfare, law 
enforcement has to notify the National Center for Missing and 
Exploited Children.
    So my question to you is, understanding that notification 
of a child missing varies a lot across this country, are there 
specific policies or practices that contribute to the lack of 
this standardized reporting, and what can be done? You talked 
about collaborative efforts, and Judge Katz talked about a 
multi-jurisdiction effort. Does this legislation seem to make 
sense, and what can be done at a national level?
    Ms. Guymon. Yes, I think it obviously does make sense. I 
think the more we build those policies and do legislation for, 
again, mandated reporting and really having those policies and 
procedures in place, I think it helps direct States in what 
they need to do, especially with the child welfare system. I 
know I come from juvenile justice. I am not in the child 
welfare system in Los Angeles, but I do know that they are very 
much engaged in this issue.
    They are working with the State to pass, like I said, new 
legislation in order to make their hot-line more productive and 
to be able to take these kids into the system and give them the 
services that they need that they have not really looked at in 
the past. I think, again, we just did not know better. Now that 
we do, we are trying to catch up and make sure that these kids 
are protected.
    Senator Portman. Thank you, Mr. Chairman. My time has 
experienced.
    The Chairman. Thank you, Senator, very much.
    Senator Portman. My time has expired, but I thank all of 
you for your work.
    The Chairman. Thank you.
    Senator Cardin?
    Senator Cardin. Well, once again, Mr. Chairman, thank you 
for holding this hearing. I thank all of our witnesses, and 
particularly I want to thank Ms. Graves.
    We hear the numbers and statistics. We are shocked by the 
statistics, but, until you see a face and you recognize that 
each one of those numbers is a person whose life has been 
changed forever, it is hard to really visualize the extent of 
the problem. So I said in introducing you that you are a 
courageous person. You are making a huge difference by telling 
your story, and I just really want to thank you for that.
    As you said, people do not want to acknowledge that they 
are homeless. Children do not want to acknowledge that they are 
homeless. They do not want to acknowledge that they do not have 
a family. They certainly do not want to acknowledge the type of 
background that you went through, and yet you are doing that. I 
just wanted you to know how important it is and how proud we 
are that you are here today.
    I have been involved on international trafficking through 
the U.S. Helsinki Commission. The United States has taken a 
major leadership role to set up resources internationally to 
deal with trafficking. Our credibility is affected because we 
have not done enough locally, so we need to take care of our 
own business here at home. I think your point about resources 
for housing is a very valid point.
    The first order of business is to have a safe home. Many of 
these children are in the child welfare system, but the child 
welfare system has failed, so we need to be able to have a 
fail-safe, a safe home, and the resources devoted to deal with 
that.
    I want to ask you, though, the difficult question about 
safety. You were threatened, your family was threatened. You 
are talking today with girls who are coming out, and you have a 
chance to meet with them. What is the confidence level of a 
person who has been trafficked for sex about coming forward to 
law enforcement as to the fear that they will endanger their 
personal safety, and the government, the community, will not 
provide the support necessary to protect them?
    Ms. Graves. The first thing that comes to my mind is 
imminent death. In the past, that is what I would have thought 
of about 7 or 8 years ago. But now that I look at how the 
child--I mean, when I got out, I actually had caring law 
enforcement, a special agent, whom I still speak to to this 
day.
    Almost 7 years later, I still speak to her, a Boston police 
officer, Sergeant Kelly O'Connell, whom I speak to to this day, 
every other week. We still check in with each other and make 
sure that I am doing fine. But if I was not on my death bed, I 
would not have gone to the hospital.
    I know girls now, they do not trust law enforcement because 
there are no safe houses. What are they going to do? They are 
going to put the girls in DC in Covenant House in DC, and all 
the pimps know where the group homes are. They know where the 
detention centers are. There needs to be a specialized, private 
place where there is security, because, without security, who 
is going to protect these girls?
    These girls are going to have to go to school, they are 
going to have to go and get a job eventually. These traffickers 
know where all these places are. I mean, luckily our office is 
a confidential location, but I am sure they know where the 
probation offices are.
    If a girl is on probation, they know her probation officer. 
They can meet a girl outside her probation officer's office. 
Without law enforcement having the training that they need on 
trafficking--if a law enforcement officer is not trained on 
what trafficking is, they are going to say that a girl is a 
prostitute and she is a throw-away.
    As a case manager--and people do not know that I am a 
survivor at all times--I have heard officers throw around the 
word ``throw-away.'' I have heard teachers say that a girl is a 
``throw-away,'' that they are not worth the time. So, if a 
person is not even worth your time to listen to, how do you 
think that they are going to feel about coming forward and 
giving you information? I testified against my traffickers. I 
put six traffickers away, two of them for 25 years, because I 
had the proper support system of law enforcement and case 
managers. But most girls do not have that like I did.
    Senator Cardin. You experienced several pimps. What were 
their age ranges?
    Ms. Graves. From 21 to 35. I was 16 at the time I met the 
first one, who was 23. But on average, they are a little bit 
older, usually in their early '30s.
    Senator Cardin. How difficult has it been to testify 
against pimps?
    Ms. Graves. It was the scariest experience that I have ever 
experienced. It was more scary than this experience today. 
[Laughter.]
    So for me, I look around at you guys, and I am like, well, 
they are not threatening my safety or threatening to harm me, 
so I can do this. For everything that scares me, I say: I 
testified in front of my traffickers; I put them away. Without 
me, that case would never have gone to trial. None of the girls 
would have come forward. But when I came forward, other girls 
decided to stand up against my traffickers. We need people who 
are going to support the girls and care for them like we do at 
FAIR Girls.
    Senator Cardin. Well, you have done a great job here. I am 
glad that you are here, and thank you very much for your 
commitment to change our system.
    The Chairman. Thank you, Senator.
    Senator Casey?
    Senator Casey. Ms. Graves and the other panelists, we are 
grateful for your testimony here. I was thinking, as I join in 
the commendation that other members of the committee have sent 
your way for your courage in being here today, of the greater 
measure of courage you have shown to come back from where you 
were.
    One of the things we have in the Senate and in the House is 
the privilege of meeting soldiers after they have come off the 
battlefield. I think many of us would certainly put each of you 
in that league, as someone who has suffered so much, but is 
still able to look forward.
    One of the most inspirational parts of your testimony is 
that you have figured out a way to take what happened to you 
yesterday and inspire others for tomorrow. We are in your debt 
for that.
    You talked about three areas of change, number one being 
the critical funding to open specialized homes. Then you talked 
about this curriculum. I am not sure if you read this, Ms. 
Graves, but I wanted to recite it as well, where you talk about 
the education of young people. You say, ``I have educated 
thousands of teen girls and boys in foster homes, schools, and 
detention facilities. This curriculum has educated over 4,000 
teens nationwide.'' It goes on from there.
    What would you hope would come from a hearing like this, or 
efforts that are undertaken here in the Senate, when it comes 
to just that part of it, educating young people?
    Ms. Graves. Well, for me it would be to see our curriculum 
in every single school and every single system around the 
country, because our curriculum is broad, it is expansive, and 
it can be used in every other city. I know that we use our 
curriculum in Connecticut as well with an organization called 
LOVE146. They are teaching it in Connecticut schools and using 
the systems already in place in Connecticut. If every single 
city had something to identify victims in the schools, then 
that would be a key starting place.
    Girls and boys are more likely to say, this is something 
that is happening to me, once they know that they are a victim. 
If you think that I am just a dirty, nasty person and there are 
other names--there is an activity we do called Power of Words. 
We ask the students and the teachers to come up with words to 
describe a prostitute and a sexually exploited teen. They come 
up with ``nasty,'' ``dirty,'' ``trashy,'' ``STD,'' other words 
to describe a prostitute. We sometimes put in the word ``child 
prostitute,'' because people use that term often.
    Then we put ``sexually exploited teen'' on the other side. 
You know what they say? ``Sad,'' ``lonely,'' ``scared,'' 
``vulnerable,'' ``manipulated,'' ``unloved.'' For that one 
activity, that changes the mind-set of a group of teenaged boys 
sometimes who use these terms and listen to music that 
denigrates women.
    For them to say it is actually wrong, what happens to these 
girls, and to change their outlook, to me that is key. If I can 
save one victim, I am happy, because that would be one less 
person going through what I went through. If I could rescue 
1,000 girls or a million girls, if our curriculum was in every 
single school district or a curriculum similar to it, it would 
actually save more children, because they will know that they 
are actually victims.
    Senator Casey. Well, I have no doubt your work has saved a 
lot of young people already.
    For Ms. Guymon, Ms. Goldfarb, and Judge Katz, I guess as 
much as I was focused on prevention in that first question, the 
here and the now of law enforcement, when Ms. Graves talked 
about Sergeant Kelly O'Connell, what can we do to make sure 
that there are more Sergeant O'Connells?
    In other words, when you deal with law enforcement on these 
issues, do they tell you that this is a capacity or resource 
question or is it simply a failure to coordinate or collaborate 
between and among one part of the State and law enforcement, or 
do you hear that they need more resources? What do you hear 
from law enforcement?
    Judge Katz. All of the above, frankly. I mean, for many 
departments, they need to be educated, and that is what we do. 
We go out and we meet with police departments throughout the 
State to educate them. Some of them do not even know about the 
legislation that was passed 2 years ago that said these young 
ladies are not to be arrested for prostitution, so it really is 
about education and training, and we do that.
    I think the resource part comes in in terms of the 
prosecution. It is not dissimilar to them, I think, than 
arresting somebody for a small amount of drugs versus the 
dealer. Unless they see it as a real pattern of behavior in 
their locations, they feel that they are under-resourced to be 
able to really go after these cases. So, all of the above.
    Senator Casey. Thanks very much.
    Ms. Goldfarb. If I could, I would love to add to that, 
because I have the privilege of working with Sergeant Kelly 
O'Connell in Boston. I guess I would want to back up a little 
bit and say that Asia had the good fortune to meet Kelly, but 
at the moment that we were very first, as a community, 
beginning to even recognize that girls like Asia were out 
there. So the good fortune was that you met, but we were really 
just getting off the ground.
    So I work in the same building with the detectives who 
manage our human trafficking cases, also together with a 
program called My Life, My Choice, which provides prevention 
education and mentoring for exploited youth. So our Children's 
Advocacy Center and our partners are located together.
    What I observed in doing this work with Kelly, who is 
extraordinary, is that, when the police first started working 
with us and with our other partners, we were not on the same 
page. The police, Kelly among them--and she would admit this--
thought that they would go out and rescue girls, that they 
would identify a girl and they would be able to scoop her up 
and take care of her needs.
    The frustration of seeing that not happen, of seeing girls 
run away, of seeing girls reject the overtures that law 
enforcement and others were making, was really heartbreaking. I 
think what law enforcement in our community has learned is that 
part of the response from law enforcement, as well as others, 
begins with a relationship. So it is clear in listening to Asia 
that that relationship was founded when they met and is 
sustained now.
    For law enforcement to look at their work in that way is 
distinctly different than I think the way they look at other 
crimes that they investigate. Setting that kind of model in 
place is something that all the disciplines--child welfare, law 
enforcement, mental health folks, and others--have to learn 
together because, with these kids, it is rooted in the 
relationship and having adults that these kids can count on in 
the long term, and realizing that we are not going to be able 
to rescue exploited youth but that we have to join them in 
their recovery and move forward in that way and hope that, 
along that recovery, there will be an opportunity to prosecute 
their traffickers.
    The Chairman. Thank you, Ms. Goldfarb, very much.
    Senator Casey. Thank you.
    The Chairman. Thank you, Senator Casey.
    Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman.
    The four of you have been a superb panel. What is striking 
about it is, normally in this room we are talking about numbers 
and we are talking about tax law and charts and graphs. What 
you all have driven home and why we are so appreciative, Mr. 
Chairman, of your holding this hearing, is that it always comes 
back to people. It always comes back to individuals and young 
women.
    Ms. Graves, you have delivered the wake-up call. You have 
conveyed the urgency of reform this morning. I am told by the 
staff that you want to go to law school. I have to say, the bad 
guys had better look out if you are going to be a lawyer. We 
are very appreciative of the good work that you do.
    Now, here is what it comes down to for me. I think what 
really sparks Senator Portman and a number of colleagues who 
are supporting this bill is, in much of the country today, if a 
girl is found in the custody of a so-called pimp or even a 
john, she is not considered to be a victim of abuse.
    That is just wrong. It defies common sense, and that is 
right at the heart of our bill, to amend Federal law to make 
sure that, in every corner of the country, child victims of sex 
trafficking are considered as victims of abuse and neglect.
    Now, one of the other provisions speaks to a concern you 
all have described today, and a number of Senators have asked 
about it, which is, we have to get additional resources for 
treatment and for services. It was our view--when Senator 
Portman and I were trying to put this bill together and talking 
to Senators--that because we do not really have good numbers 
today about how many young women are being trafficked, that 
makes it harder to make the case to legislators and 
policymakers for getting the money for services and treatment.
    What is your take on that? When we get the numbers--and the 
idea is to finally have the annual State report, because some 
States do it, other States do not. When we get the numbers on 
the children identified as suspected victims of trafficking, 
will that help us make the case for additional money for 
services?
    Perhaps for our middle two witnesses, Ms. Guymon and Ms. 
Goldfarb, what is your take on that? Will that help us get the 
dollars that we need for these treatment services that you all 
speak so eloquently about?
    Ms. Guymon. I think that, if one young woman is sexually 
exploited, that is enough to make a case. I know in Los Angeles 
County we are always asked the question about the numbers. On 
average, we have about 200 young women a year who are arrested 
and brought into juvenile justice. As I said, child welfare has 
recorded 70 thus far this year.
    In our juvenile hall outreach programs we had, over the 
past year, 37 young women disclose that they were being 
sexually exploited who were never arrested for sexual 
exploitation and whom we had not identified. We also had, in 
2010, from our 18- to 24-year-old population, in 1 year, 2,341 
young women arrested for a prostitution-related offense.
    So, when people ask about the numbers, I say anywhere 
between 37 and 2,351. Again, that one young woman who goes 
through this experience is, I think, enough to build a case 
that they are in need of services and support throughout all of 
our systems.
    Senator Wyden. Ms. Goldfarb, do you want to add to that?
    Ms. Goldfarb. So it is a little bit of a chicken and an egg 
because, in order to know what the numbers are, you have to 
increase awareness, which you hope will result in 
identification. But once you have identified an exploited 
youth, we need to be ready to provide the services that that 
child requires.
    So waiting for the numbers will leave us with a dilemma, so 
I think there has to be capacity building at the same time that 
we are very deliberately making sure that professionals across 
disciplines are able to recognize these kids and report them.
    I think that there are opportunities to build capacity 
within existing organizations. It is not necessarily creating 
lots of new systems, but I worry, as Michelle does, that if we 
wait until we have the numbers, kids will continue to be 
harmed. If we recognize their abuse and we are not able to 
provide the support they need, what is the message there? Then 
we have let them down yet again.
    Senator Wyden. It is a very powerful point. Clearly, when 
one child, just one young girl, falls between the cracks, that 
is one too many. I think what we are looking for are the tools 
to try to figure out how to make the case.
    If I can just squeeze in one additional question, Mr. 
Chairman.
    Ms. Katz, you all in Connecticut seem to have really 
figured out how to put together a comprehensive strategy, so, 
when local jurisdictions around the country say, gee, we really 
do not know how to fix this, or we cannot get started, you all 
seem to have figured that out. How did you do it? What are the 
lessons for everybody else?
    Judge Katz. Well, I am a little late to the game, because I 
have only been there 2\1/2\ years, and some of the work started 
before me. But part of it was really shining a light on it and 
talking about it at every possible venue. Anytime I testified 
before the legislature, I figured out a way to work this topic 
in.
    Anytime I went around the State and I went to our offices, 
to our providers, to our hospitals, I figured out a way to make 
this part of the dialogue. Because, just like you are 
experiencing today, once you hear about it, you never forget 
it, and then you want to know what you can do to help.
    So, frankly, that was a big part of it. I have wonderful 
partners at the legislature. I have a very supportive Governor. 
Frankly, I think it really is an issue of just people caring 
and then trying to be resourceful about it in response. It is 
not easy. We still have plenty of work to do, there is no 
question about it. It is not a quick fix.
    I mean, that is the other thing. I think my partners here 
have talked about that. There is, I do not want to say, a 
relapse as part of the recovery, but you are not going to get 
these girls in and immediately fix everything for them. So part 
of the training has to be for people to understand trust.
    When you find a young woman who has been involved in this 
system, to expect that suddenly she is going to thank you for 
everything you are going to do for her and suddenly trust you 
is really to ignore the reality that she has experienced. So it 
is a long process, and it takes an enormous amount of patience.
    If I can just conclude with one other thought. Before, I 
was talking about the stick when I was talking about in rem 
proceedings, which are obviously a great way of trying to 
finance some of the things you want to try to do, and licensing 
at Super Bowl venues, et cetera. There is also a carrot.
    So we are now in the process of developing specific foster 
families who understand these girls, whom we are going to train 
so that, when we find these girls, we can put them not just in 
shelters, not just in housing, but with families.
    I am famous for saying at the department and around the 
State, I want children having breakfast in the morning with the 
same person who put them to bed the night before, and that is a 
family. So it is really about recruiting specific families whom 
we can train and work with. So that is where the incentives 
come in.
    Frankly, as part of your legislation, if you can figure out 
a way to help States, to reimburse States for these new models, 
I think you will do an amazing job at helping to solve this 
problem.
    Senator Wyden. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Senator Nelson?
    Senator Nelson. Thank you, Mr. Chairman. Thank you all.
    I want to read you an article, a portion of an article, 
involving my State. Florida is blessed to be a destination 
State--with theme park family vacations, business conferences, 
weddings, sporting events--and the natural beauty of our 
beaches entices thousands of visitors a day.
    Unfortunately, Florida also draws visitors for a far less 
attractive reason: child sex trafficking. Our State is ranked 
third in the Nation, just behind California and Texas, for this 
dubious honor. The implication in a couple of these articles is 
that a lot of this takes place among visitors, conventioneers, 
et cetera. To what degree, Judge, in your experience, are 
hotels complicit in this activity, and to what degree do they 
know that this activity is going on and approve of it?
    Judge Katz. Well, I can certainly tell you anecdotally, we 
have casinos--and we have young victims who have told us that, 
despite all the security that is supposedly watching, casinos 
are used routinely, as are large concert halls, any kind of 
sporting venue. It is almost just implicit, for lack of a 
better term. It is implicit. There is an implicit understanding 
and a look-the-other-way that this goes on.
    Senator Nelson. So the owners of these hotels or the 
managers of the hotels would obviously know that this illicit 
activity is going on, very possibly with children?
    Judge Katz. Yes. I would say know or should have known. In 
the law, that is a term that we frequently use. It is great for 
someone to say, I did not know, but then we turn to, but you 
should have known. When you are looking at everything else, and 
you are counting every spoon that is on the table and every 
beverage that is being taken behind the bar, why are you not 
paying attention to what is happening to these girls?
    Senator Nelson. Do you have any recommendation of how this 
ought to be exposed, other than these attempts by local TV 
stations and the newspapers to bring this out?
    Judge Katz. Well, I hate to keep coming back to financial 
consequences, but money talks. I really think that that is a 
very viable way to get somebody's attention. Imposing fines, 
significant fines, will go a long way.
    Senator Nelson. In your experience in Connecticut, are you 
seeing improvement in the reporting of these cases so that it 
will build the case all the more that this is happening right 
under our noses?
    Judge Katz. We are. Our CARELINE gets 96,000 calls a year. 
Now, that is obviously not just for this type of reporting. But 
our numbers are up, and I say that that is a good thing, 
because we know it is going on. So the more the numbers go up, 
the more we can attend to it and the better case that we can 
make.
    Senator Nelson. Back to the hotels. In your experience in 
Connecticut, this is not fleabag motels. We are talking about 
high-end hotels as well.
    Judge Katz. Right. It is both, but definitely high-end 
hotels. I want to be clear that much of what we are learning is 
from the girls themselves. We have every reason to completely 
trust their accounting.
    Senator Nelson. Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator.
    I was wondering how best to reach young girls. Social 
networking is so prevalent these days, texting, Twitter. I 
guess they are called tweeters, tweeting. I do not use it, 
obviously. Facebook. But let me ask Ms. Graves and others the 
degree to which maybe--I do not know, I am just thinking out 
loud here--some kind of a website or something, someplace for 
girls to go to, might be helpful. They all have iPhones. They 
maybe do not trust a teacher, maybe do not trust a cop or 
something, but want to talk to somebody. I would ask the rest 
of you too about the use of social networking.
    Ms. Graves. I would say that using social networking would 
be excellent, because you can see the warning signs. If you 
have a website dedicated to learning the warning signs through 
games, because I know that our Charm Alarm is--most girls do 
online quizzes to see if my boyfriend likes me, or, oh, our 
names are compatible, or what is my horoscope. I see this every 
day. Oh, what is my Facebook status? This is something that I 
hear from girls on a daily basis.
    So, if we can create something and put a system in place 
for warning signs, red flags, things of that sort, to make it 
fun and catchy like our Charm Alarm is, I think that might be 
key to getting to these girls, because it is an online resource 
that girls can access through the Internet or through their 
phone.
    Also, it looks like a regular quiz, so it does not look 
like anything dangerous. Each level, if you answer the 
questions one way--if you answer them with ``yes,'' ``yes,'' 
``yes,'' ``yes,'' ``yes,'' like my boyfriend cares about me, my 
boyfriend is compassionate and sweet, or if you say ``no'' to 
all the answers, it gives you a level red. The level red means 
go to seek help immediately, that you are in a dangerous 
situation, and it gives you an emergency number in your area 
that you can reach out to.
    I think that if all jurisdictions had something like this 
in place, that it could be sort of like Commissioner Katz does, 
like if the Charm Alarm quiz could have Connecticut's 
information in place for a youth who may be in sensitive 
situations so they can reach out directly through that quiz, 
but send a text message or send a tweet on Twitter to whatever 
services they need.
    If all these services were mobile-based, they could be 
Facebook friends with the Department of Children's Services and 
make a report through the Department of Children's Services 
that way instead of actually having to call in because they may 
not be able to use their phone.
    I mean, I am sure there are people in this room right now 
who are on their phones, but you cannot hear them because they 
are not speaking. So I mean, something like that in place would 
probably be key, I think.
    The Chairman. So would the girls trust these, like Charm 
Alarm and all that?
    Ms. Graves. It is the Internet. The Internet is the best 
thing in the world. Without the Internet, I know that for me, 
even as a 25-year-old, without my phone for about 2 days, I 
went through iPhone withdrawal and had to go to Starbucks when 
our power went out last summer just to charge my phone so I 
could see my social networking and things like that.
    The Chairman. Other panelists, how best do we use social 
networking? Is that useful?
    Ms. Guymon. I would say Asia pretty much covered that, but 
I also would like to say, too, outside of social networking, 
which I think has been talked about here, is prevention efforts 
within the community. I know that they have talked about a 
curriculum.
    I know that we have done that in Los Angeles through the My 
Life, My Choice curriculum that we have. We have given the 
curriculum to almost 700 young women over the last year, and, 
through those classes and through those workshops, I think it 
has been a great--young women are asking if they can bring 
their friends. I think they talk to each other, and I think 
they want to know, and I think they have a right to know.
    I also want to say through that curriculum, I think one of 
the most important things that we are doing in Los Angeles is 
incorporating survivors in a lot of the work that we do. I 
think that is just invaluable.
    Within our department, we have had to change some of our 
policies and rules for some of the young women and adult 
survivors to come in and do mentorship and whatnot with our 
young girls. But I think they are the primary facilitators of a 
lot of the prevention efforts we are doing, which I think has 
made a huge difference in our county and with connection with a 
lot of our young people.
    The Chairman. Senator Hatch?
    Senator Hatch. Well, I have really enjoyed this panel. 
Maybe enjoyment is not the word, but I have really learned from 
this panel. I have been reading up on this, and I have to say 
that your time here has been well-spent.
    Now, you have made a lot of suggestions here today, and we 
are going to pay attention to those, but let me ask each of you 
to just sum up for us, if you had just one choice that you 
could make that we could help you with, what would you choose?
    Let us start with you, Asia, and go across. I have 
appreciated your testimony very much, by the way. I think you 
are a brave person, and it is wonderful to see you finish up in 
college and hopefully go to law school. It will be a great 
thing, so we are proud of you.
    But if you had just one thing that we could do within, say, 
this next year, that you think would be really helpful and make 
a difference here, what would you choose?
    Ms. Graves. For me, it would be doubling the number of 
beds. Currently, from my last check, there were less than 100 
beds around the country for victims, dedicated to victims.
    Senator Hatch. That is unbelievable to me.
    Ms. Graves. Dedicated.
    Senator Hatch. I mean, that is hard to believe. So it 
includes education so people realize we are not doing the job 
here.
    Ms. Graves. With less than 100 beds, in LA alone they found 
more victims. We have identified at FAIR Girls way more victims 
than 100. If we just had the 100 beds in DC, that would not 
even cover all the girls that we reach per year.
    So, if you think about that, just in one city alone--and 
that is spread out through the country. We are fighting for 
these beds with other organizations. If you are a small 
nonprofit that does not have connections with this place or 
that place, you may not get a bed for your girls.
    So why do we have to fight for beds? There should be enough 
beds to go around. A girl should not have to choose sleeping 
with a man for a place to sleep for the night or a place in a 
nice bed where she feels safe. I have girls every day who have 
to make the decision: sleep outside or sleep with a man.
    Senator Hatch. Or sleep in the hospital like you did.
    Ms. Graves. But hospitals have tightened their strings.
    Senator Hatch. And only one night. Yes.
    Ms. Graves. They have tightened their strings so you cannot 
do that anymore because of the medication, and they are afraid 
of other people being in the hospital, if you are not a 
patient, after certain hours. But if you think about it, having 
to make a decision like that at 12 years old, some girls even 
younger--we had a client whom I saw when I first got to FAIR 
Girls not too long ago who was 10 years old who still played 
with Barbie dolls, stickers, and glitter. Luckily, she was able 
to go to a hospital, the Psychiatric Institute of Washington, 
and stay there for a while to get her stuff together.
    But that is not always an option for girls who are almost 
17 years old, because most foster homes do not want to take 
them, most group homes do not want to take them because of 
their age. So what do we tell these young ladies every day? 
What are you going to tell the members in your district, when 
you have a young victim in your district, that there is no bed 
for you? That is just my one thing.
    Senator Hatch. That is good.
    Ms. Guymon?
    Ms. Guymon. I would echo what Asia said. I think housing is 
probably the biggest obstacle we have. But I would also say 
that child welfare should be given the resources needed in 
order to provide those services and have those resources for 
young children so that we can get to a place where we 
absolutely decriminalize these young girls so that they do not 
come into the probation system.
    I think it just gives, like I say, young girls the wrong 
message. We are trying to work with them as victims, and they 
often look at us like, well, if I am a victim, why am I in a 
juvenile hall? So I think we have to work towards 
decriminalization and then really support the child welfare 
system to set up the services needed to support this 
population.
    Senator Hatch. All right.
    Ms. Goldfarb?
    Ms. Goldfarb. I would echo what Michelle has said. I really 
believe that, if child welfare across the country really was 
considering these kids to be among their kids and had the 
policies and regulations to support that and the training to be 
able to implement 
trauma-informed care, that that would really be a first step 
that would yield incredible benefits, because it would be the 
first step in tying together the recovery response with the 
whole system.
    Senator Hatch. Thank you.
    Judge Katz, let us finish with you.
    Judge Katz. I do not think I can improve upon what has 
already been said. I just want to highlight the trauma-informed 
care, because these girls--and largely girls, but not 
exclusively--have all been victims of trauma, and we need to be 
very mindful of that in everything we do. But we also cannot 
underestimate the value of the influx and infusing of money for 
purposes of training and educating people.
    Then finally, I think what you have done today, you have 
really begun the process. I do not mean to sound pandering, but 
I think the more attention you can put on this and the more you 
raise awareness, you will have done an enormous amount to 
advance the cause.
    Senator Hatch. Well, thank you so much. I want to thank all 
four of you. This has been dramatic testimony. It has been 
effective testimony. It has been social testimony that is very 
important, I think. I hope a lot of people have been watching 
this.
    We will see what we can do. I remember when Senator Kennedy 
and I came together on the AIDS issue. Everybody was afraid of 
it. I think they are probably a little bit afraid of this too. 
But I told him, we have to do something about this. This is 
terrible. Oh, yes, yes, he was ready to go. But, when we 
brought it to the floor, we had a really rough time at first. 
We finally passed it, then we passed two others that have made 
a real difference.
    Now, we have to have the best advice you can give us. Write 
to us and help us to know what we can do to hopefully 
comprehensively help in this area. I agree, I do not think the 
States are doing what they should in this area, but a lot of it 
is because they are lacking the funds too. They are lacking the 
education, they are lacking the training, they are lacking a 
lot of things, maybe even law enforcement.
    They are lacking the understanding that these kids are not 
criminals, they are exploited. So help us to know how to do 
this better so we do not go off on just one or two routes to 
try to solve this problem. Help us to do it so we can do it in 
a comprehensive and decent way. I know that the chairman and I 
will do everything in our power to try to help in this area.
    So I just want to thank you all for being here. It means a 
lot to me, and I think to every family in this country, every 
social worker, religious worker, and so forth. Their hearts 
have to go out to you for what you are doing. We all owe you a 
debt of gratitude and thanks.
    Thanks, Mr. Chairman.
    The Chairman. Thank you, Senator.
    I am trying to get a better handle on decriminalization. I 
suppose in many States, prostitution is a crime, but coerced 
sex is not. So how does law enforcement better determine that a 
young girl is not a prostitute but that she has been coerced? 
Is that an issue or not an issue? It is obvious to me that 
forced sex should not be a crime. That is clear. What is the 
issue here about decriminalization? Maybe somebody can help me 
out a little bit. Judge?
    Senator Hatch. Start with the age, I would think.
    Judge Katz. I absolutely would begin with the age. Think 
about the inconsistency. In most jurisdictions, children under 
the age of, sometimes 18, sometimes 16, certainly at least 16, 
are deemed incapable of consenting. So we prosecute, even in 
boyfriend/girlfriend situations. We prosecute young men for 
having sex with under-aged girls. In Connecticut, it is sexual 
assault in the second degree, because they are incapable of 
consenting.
    But yet, to turn around then when it is a different type of 
girl, a girl who has been trafficked, and then to say to her, 
but you are a prostitute, I mean, the inconsistency is blatant. 
So I think beginning certainly with age is very, very easy. 
Enhancing the penalties certainly is very, very easy, in my 
view. I mean, these are quick fixes, and I would certainly 
begin there.
    The Chairman. But can States not do this? Can States not 
make this change?
    Judge Katz. States can, and I would invite them to continue 
to do so, as Connecticut has.
    The Chairman. All right.
    Ms. Guymon. And I think, just overall as a society, we have 
always accepted prostitution. I know that growing up, when I 
would hear the word ``prostitute,'' a 24-year-old woman's face 
would come to my mind. But again, working in custody in 
juvenile halls and in camps, we had 16-year-olds who were 
arrested for prostitution. Again, I just assumed that this is 
what she chose to do, and I just put her in a category.
    I know driving down some of our streets in LA, you would 
see young women out there. Again, just dismissing it, thinking, 
well, that is what she chooses to do, and I will just stay out 
of it and I will do my thing. So I think for a long time, I 
think as a society, we have just kind of accepted it and driven 
past it, and it is not my issue, it is not my problem.
    So I think I felt that way until I became aware that it was 
not about prostitution, teenaged prostitutes, it was really 
that they were being sexually exploited, because, again, sex 
trafficking only happened in other countries. So I think it was 
just easy for me to wrap my head around that this was something 
I just was not going to be involved in. Now that we know 
better, I think things will start to change.
    The Chairman. Right. I know it is hard to generalize, but 
in LA do law enforcement officers know the difference? I mean, 
are they sensitized or not?
    Ms. Guymon. I think they are starting to know the 
difference. I know that the Los Angeles Police Department has 
taken on a real training initiative within all the different 
LAPD stations, as well as our sheriff's department. I think 
that is slowly starting to change. I think it has not always 
been there.
    I think probably the biggest frustration for law 
enforcement is, it is easy to arrest and detain, because I 
think they feel like that is the only option to keep her safe 
from running right back. I think they are more conscious about 
keeping her safe. I think that is why it is so important for us 
to build other programs and other services so we do not just 
default to detention, to know that other people can keep her 
safe and provide that security. So I think we are getting 
there.
    The Chairman. I was going to ask that question too. That 
is, clearly follow-up is essential. So what are you doing to 
follow up with these girls who come in? Maybe you found a bed 
and they can stay there at that site, but they are obviously 
going to need some support services; they probably have no 
father or mother. Their mother is probably on crack or heroin, 
all that. So what are you doing about follow-up to keep them 
from straying again?
    Ms. Guymon. I think the biggest part of follow-up we are 
doing in Los Angeles is, we are just trying to build a support 
system around her. I think what we have done throughout a lot 
of the training, especially with our foster homes and with our 
group homes, is really about building connection.
    We know that when these young girls run, we have not 
provided that support and security for her. So we just talk a 
lot about sticking with kids and not giving up, and, when she 
runs, we take her back and we really build those support 
networks around her.
    I think, again, like someone said earlier, it is about 
relationships, it is about connection and really trying to make 
sure that we are there for her and that we do not let her down.
    I think that is really a lot of what we have tried to do in 
Los Angeles, with connections and support and building a 
network of people with collaboration around the young girl.
    The Chairman. Well, thank you very much. I am very proud of 
all four of you. You work hard in what you do. You care. You, 
Ms. Graves, you are very articulate. When you do go to law 
school, you are obviously going to do what you want to do, but 
I encourage you to continue to be a voice for girls who are in 
your situation, your former situation, because you have the 
experience, you have the passion, you are articulate, and you 
are committed.
    I just urge you, and all of you, to just keep it up. This 
has been quite a hearing. This is quite something for the 
Finance Committee, frankly. We have learned a lot, and we are 
going to follow up. But thank you so much for your efforts and 
for what you are doing. You are making a big difference for a 
lot of kids. Thank you.
    The hearing is adjourned.
    [Whereupon, at 12 p.m., the hearing was concluded.]




                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  [all]



</pre></body></html>
